APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Supreme Court of California
Denying Petition for Review
(October 21, 2020) .............................................. 1a
Order of the Court of Appeal of the State of
California Denying Petition for Rehearing
(July 29, 2020) .................................................... 2a
Order of the Court of Appeal of the State of
California Granting Respondents’ Motion to
Dismiss (July 13, 2020) ...................................... 3a
Decision on Submitted Matter Granting Special
Motion to Strike the Complaint (Signed July
3, 2019, Filed July 5, 2019) ................................ 4a
Judgment of the Superior Court of California
(August 9, 2019) ............................................... 17a
Notice of Appeal
(October 1, 2019) .............................................. 20a
OTHER DOCUMENTS
Amicus Letter of Kevin Sullivan
(August 18, 2020) ............................................. 22a
Amicus Letter of Glen Moss
(August 19, 2020) ............................................. 25a
Amicus Letter of Douglas Applegate
(September 17, 2020)........................................ 29a
Amicus Letter of John Shepardson
(October 5, 2020) .............................................. 33a

App.1a
ORDER OF THE SUPREME COURT OF
CALIFORNIA DENYING PETITION FOR REVIEW
(OCTOBER 21, 2020)
IN THE SUPREME COURT OF CALIFORNIA
EN BANC
________________________
SPIELBAUER LAW OFFICE,

Plaintiff and Appellant,
v.
MIDLAND FUNDING, LLC ET AL.,

Defendants and
Respondents.
________________________
S263930
Court of Appeal,
Sixth Appellate District - No. H047393
Before: CANTIL-SAKAUYE, Chief Justice.
The petition for review is denied.
Cantil-Sakauye
Chief Justice

App.2a
ORDER OF THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
DENYING PETITION FOR REHEARING
(JULY 29, 2020)
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA SIXTH APPELLATE DISTRICT
________________________
SPIELBAUER LAW OFFICE,

Plaintiff and Appellant,
v.
MIDLAND FUNDING, LLC ET AL.,

Defendants and
Respondents.
________________________
H047393
Santa Clara County Super. Ct. No. CV339157
Before: Mary J. GREENWOOD, P.J.
BY THE COURT:
Appellant’s petition for rehearing is denied.
/s/ Mary J. Greenwood
P.J.
Date: 7/29/2020

App.3a
ORDER OF THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA GRANTING
RESPONDENTS’ MOTION TO DISMISS
(JULY 13, 2020)
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA SIXTH APPELLATE DISTRICT
________________________
SPIELBAUER LAW OFFICE,

Plaintiff and Appellant,
v.
MIDLAND FUNDING, LLC ET AL.,

Defendants and
Respondents.
________________________
H047393
Santa Clara County Super. Ct. No. CV339157
Before: Mary J. GREENWOOD, P.J.
BY THE COURT:
Respondents’ motion to dismiss is granted. The
appeal filed on October 1, 2019, is dismissed as
untimely.
/s/ Mary J. Greenwood
P.J.
Date: 7/13/2020

App.4a
DECISION ON SUBMITTED MATTER GRANTING
SPECIAL MOTION TO STRIKE THE COMPLAINT
(SIGNED JULY 3, 2019, FILED JULY 5, 2019)
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SANTA CLARA
________________________
SPIELBAUER LAW OFFICE,
A SOLE PROPRIETORSHIP, LLC,

Plaintiff,
v.
MIDLAND FUNDING, LLC, ET AL.,

Defendants.
AND RELATED CROSS-ACTION
________________________
Case No. 2018-CV-339157
Before: Mary E. ARAND,
Judge of the Superior Court.
The special motion to strike the Complaint by
defendants Midland Funding, LLC and Midland Credit
Management, Inc. came on for hearing before the
Honorable Mary E. Arand on June 11, 2019, at 9:00
a.m. in Department 9. The matter having been submitted, and the Court concluding that the tentative
ruling and this order addresses the arguments made
at the hearing, the Court adopts the tentative ruling
and orders as follows:

App.5a
Factual and Procedural Background
This case arises from the collection of a debt.
Defendant Midland Funding, LLC acts as and is a
debt collector in the State of California and throughout
the United States. (Complaint at ¶ 2.) Midland Funding
LLC (“MCM”) works with its affiliate, defendant
Midland Credit Management, Inc. in its collection
and enforcement activities.1 (Id. at ¶ 4.)
On October 2, 2013, Midland filed a collection
action against Melanie Barr (“Ms. Barr”) in Santa Clara
County Superior Court (case no. 2013-1-CV-254015).
(Complaint at ¶ 5.) Midland allegedly purchased a
defaulted credit card agreement from Wells Fargo
Bank. (Id. at ¶ 16.) Midland sued Ms. Barr for the total
amount of $20,112.67. (Ibid.)
To defend against the lawsuit, Ms. Barr obtained
the services of The Spielbauer Law Office (“SLO”).
(Complaint at ¶ 17.) SLO conducted a vigorous defense
of Ms. Barr by issuing third party subpoenas, bringing
discovery motions, making court appearances, attending conferences with opposing counsel and preparing
for a jury trial. (Ibid.) The case was set for a jury
trial on November 16, 2015. (Id. at ¶ 18.)
Beginning in August 2015, SLO entered into discussions with counsel for Midland. (Complaint at ¶ 19.)
On September 16, 2015, Midland filed a notice of
conditional settlement and thus the jury trial date
was vacated. (Ibid.) The parties however never entered
into a settlement and no such agreement was ever
executed. (Id. at ¶ 20.)

1 Both defendants referred to collectively as “Midland."

App.6a
The collection case thereafter sat idle for three
years as Midland did nothing to prosecute the action
after filing its notice of conditional settlement. (Complaint at ¶ 22.) As a result, the matter was subject to
mandatory dismissal with prejudice as of October 2,
2018. (Id. at ¶ 23.) In April and May 2018, Midland
resolved the case with Ms. Barr by having her pay in
excess of $20,112.67. (Id. at ¶¶ 25-26.) Midland resolved
the matter without notifying SLO of these discussions
nor of the case settlement. (Id. at ¶ 27.) In addition,
Midland did not undertake any efforts to confirm that
SLO was no longer representing Ms. Barr. (Ibid.) The
court dismissed the collection action on May 30, 2018.
SLO generated attorney fees in the amount of
$24,428.25 through its representation of Ms. Barr in
the collection action. (Complaint at ¶ 30.) Due to
Midland’s misconduct and concealment of activities,
SLO was not able to bring a timely motion for attorney
fees against Midland, fees it would otherwise be
entitled to. (Id. at ¶ 31.)
On December 6, 2018, plaintiff SLO filed a Complaint against Midland alleging causes of action for:
(1) intentional interference with contractual relations;
(2) negligent interference with prospective economic
advantage; (3) unjust enrichment; and (4) unfair
business practices.2
Special Motion to Strike the Complaint
Currently before the Court is Midland’s special
motion to strike each cause of action in the Complaint.
(Code Civ. Proc., § 425.16) Midland also submitted a
2 Midland filed a cross-complaint against Ms. Barr seeking equitable
indemnity.

App.7a
request for judicial notice in conjunction with the
motion. Plaintiff SLO filed written opposition. Midland
filed reply papers.
Request for Judicial Notice
In support of the motion, Midland requests
judicial notice of the following: (1) Santa Clara County
Superior Court’s Register of Actions as of February
7, 2019, in the case entitled Midland Funding, LLC
v. Melanie Bautista3 (case no. 2011-1-CV-208539)
(Exhibit 1); and (2) Santa Clara County Superior
Court’s Register of Actions as of February 7, 2019, in
the case entitled Midland Funding, LLC v. Melanie
Barr (case no. 2013-1-CV-254015) (Exhibit 2). Midland
argues these requests are relevant for the Court to
understand the facts and circumstances giving rise
to the claims in the current lawsuit. The request is
unopposed and the Court may take judicial notice of
these exhibits as records of the superior court under
Evidence Code section 452, subdivision (d). (See Stepan
v. Garcia (1974) 43 Cal.App.3d 497,500 [the court may
take judicial notice of its own file].)
Accordingly, the request for judicial notice is
GRANTED.
Legal Standard
Code of Civil Procedure section 425.16 provides
for a “special motion to strike” when a plaintiff’s
claims arise from certain acts constituting the exercise
of the constitutional rights of freedom of speech and
petition for the redress of grievances, “unless the court
3 Ms. Barr is also identified as “Melanie Bautista.” (Logan Decl.
at ¶ 5.)

App.8a
determines that the plaintiff has established that there
is a probability that the plaintiff will prevail on the
claim.” (Code Civ. Proc., § 425.16, subds. (a) & (b)(l).)
“Consistent with the statutory scheme, ruling on
an anti-SLAPP motion involves a two-step procedure.
First, the moving defendant must identify ‘all allegations of protected activity’ and show that the challenged claim arises from that activity. [Citations.]
Second, if the defendant makes such a showing, the
‘burden shifts to the plaintiff to demonstrate that
each challenged claim based on protected activity is
legally sufficient and factually substantiated.’ [Citation.] Without resolving evidentiary conflicts, the court
determines ‘whether the plaintiff’s showing, if accepted
by the trier of fact, would be sufficient to sustain a
favorable judgment.’ [Citation.]” (Bel Air Internet, LLC
v. Morales (2018) 20 Cal.App.5th 924, 934.)
First Prong: Protected Activity
“A defendant meets his or her burden on the first
step of the anti-SLAPP analysis by demonstrating
the acts underlying the plaintiff’s cause of action fall
within one of the four categories spelled out in [Code
of Civil Procedure] section 425.16, subdivision (e).”
(Collier v. Harris (2015) 240 Cal.App.4th 41, 50-51
( Collier).) That section provides that an “‘act in
furtherance of a person’s right of petition or free speech
under the United States or California Constitution in
connection with a public issue includes: (1) any written
or oral statement or writing made before a legislative,
executive, or judicial proceeding, or any other official
proceeding authorized by law, (2) any written or oral
statement made in connection with an issue under
consideration or review by a legislative, executive, or

App.9a
judicial body, or any other official proceeding authorized by law, (3) any written or oral statement or writing
made in a place open to the public or a public forum
in connection with an issue of public interest, or ( 4)
any other conduct in furtherance of the exercise of
the constitutional right of petition or the constitutional
right of free speech in connection with a public issue
or an issue of public interest.” (Code Civ. 25 Proc.,
§ 425.16, subd. (e).) “These categories define the scope
of the anti-SLAPP statute by listing acts which
constitute an ‘act in furtherance of a person’s right of
petition or free speech under the United States or
California Constitution in connection with a public
issue.’” (Collier, supra, at p. 51, citing Code Civ. Proc.,
§ 425.16, subd. (e).)
“A claim arises from protected activity when that
activity underlies or forms the basis for the claim.
[Citations.] Critically, ‘the defendant’s act underlying
the plaintiff’s cause of action must itself have been
an act in furtherance of the right of petition or free
speech.’ [Citations.] ‘[T]he mere fact that an action was
filed after protected activity took place does not mean
the action arose from that activity for the purposes of
the anti-SLAPP statute.’ [Citations.] Instead, the focus
is on determining what ‘the defendant’s activity [is]
that gives rise to his or her asserted liability-and
whether that activity constitutes protected speech or
petitioning.’ [Citation.]” (Park v. Board of Trustees of
California State University (2017) 2 Cal.5th 1057, 10621063 (Park).)
“[A] claim may be struck-only if the speech or petitioning activity itself is the wrong complained of, and
not just evidence of liability or a step leading to some
different act for which liability is asserted.” (Park,

App.10a

supra, 2 Cal.5th at p. 1060.) To determine whether
the speech constitutes the wrong itself or is merely
evidence of a wrong, “in ruling on an anti-SLAPP
motion, courts should consider the elements of the
challenged claim and what actions by defendant supply
those elements and consequently form the basis for
liability.” (Id. at p. 1063.)

“In deciding whether the ‘arising from’ requirement
is met, a court considers ‘the pleadings, and supporting
and opposing affidavits stating the facts upon which
the liability or defense is based.’” (Peregrine Funding,

Inc. v. Sheppard Mullin Richter & Hampton LLP
(2005) 133 Cal.App.4th 658, 670.) “[I]f the defendant
does not demonstrate this initial prong, the court
should deny the anti-SLAPP motion and need not
address the second step.” (Baharian-Mehr v. Smith
(2010) 189 Cal.App.4th 265, 271.)

Midland argues each cause of action in the
Complaint is based on protected activity consisting of
litigation-related conduct in settling the collection
action brought against Ms. Barr.4 (See Complaint at
¶ 25, 26, 27; Logan Decl. at ¶¶ 5-15; Pogosian Decl.
at ¶¶ 6-17.)
As stated above, one category of protected conduct
includes “any written or oral statement or writing
made in connection with an issue under consideration
4 The Court notes the Complaint addresses only a collection action
involving Ms. Barr and an account from Wells Fargo Bank.
Midland however offers evidence showing that Ms. Barr also
had a Citibank account which became a subject “for collections
and ultimately settlement. (Pogosian Decl. at ¶¶ 6-7, 15; Logan
Decl. at ¶¶ 5, 12-14.) Midland contends the total settlement
amount for both the Citibank Account and the Wells Fargo
Account was in the amount of $35,983.69. (Logan Decl. at ¶ 13.)

App.11a
or review by a legislative, executive, or judicial body,
or any other official proceeding authorized by law.”
(Code Civ. Proc., § 425.16, subd. (e)(2).) Courts “have
adopted a fairly expansive view of what constitutes
litigation-related activities within the scope of section
425.16.” (Kashian v. Harriman (2002) 98 Cal.App.4th
892, 908.)
Protected litigation-related activities include
statements made as part of settlement negotiations.
(See Suarez v. Trigg Laboratories, Inc. (2016) 3 Cal.
App.5th 118, 123 [“Communications in the course of
settlement negotiations are protected activity within
the scope of section 425.16”]; Navellier v. Sletten (2002)
29 Cal.4th 82, 85-87 [anti-SLAPP statute applied to
claim that party “committed fraud in misrepresenting . . . intention to be bound” by release in prior
action]; Seltzer v. Barnes (2010) 182 Cal.App.4th 953,
963-967 (Seltzer) [reversing denial of anti-SLAPP
motion in homeowner’s action for fraud in connection
with settlement negotiations in underlying lawsuit];

GeneThera, Inc. v. Troy & Gould Professional Corp.

(2009) 171 Cal.App.4th 901, 908 [ affirming grant of
anti-SLAPP motion in lawsuit based on firm’s
communication of settlement offer]; Dowling v. Zimmerman (2001) 85 Cal.App.4th 1400, 1420 (Dowling)
[attorney’s negotiation of stipulated settlement in
unlawful detainer action was protected conduct]; see

also Applied Business Software, Inc. v. Pacific
Mortgage Exchange, Inc. (2008) 164 Cal.App.4th 1108,

1118 [entering into a settlement agreement is protected
activity].)
Here, each cause of action arises from facts
regarding settlement of the collection action between
Midland and Ms. Barr. With respect to the first and

App.12a
second causes of action, plaintiff alleges the settlement
interfered with the attorney-client relationship between
SLO and Ms. Barr. (Complaint at ¶ 37, 46.) In particular, plaintiff SLO claims Midland failed to disclose
the settlement discussions to avoid paying attorney
fees to SLO arising from the collection action. (Ibid.)
Similarly, the third and fourth causes of action for
unjust enrichment and unfair business practices allege
Midland engaged in settlement discussions with Ms.
Barr without notifying plaintiff SLO. (Id. at ¶¶ 51,
62.) Midland disputes any such interference as Ms.
Barr confirmed in writing that she was no longer
represented by counsel at the time of settlement.
(Logan Decl. at ¶¶ 11, 15; Ex. 1.) In fact, according to
Midland, Ms. Barr wanted to settle her collection
action because she was pursuing a home refinancing.
(Id. at ¶ 12.) As settlement of the underlying collection
action constitutes the gravamen the Complaint, each
cause of action is based on protected activity to satisfy
the first prong.
In opposition, plaintiff SLO argues the Complaint
does not arise from protected activity as it is based
on Midland’s conduct, i.e. settling the collection case,
rather than any specific statements or communicative
actions made in the collection litigation. (See OPP at
pp. 2-7.) This contention is not persuasive for several
reasons. First, the protections of the anti-SLAPP statute extend to “any act” in furtherance of a person’s right
of petition. (Code Civ. Proc., § 425.16, subd. (b)(1).)
“Any act” includes communicative conduct such as
the filing, funding, and prosecution of a civil action.
(Ludwig v. Sup. Ct. (1995) 37 Cal.App.4th 8, 17-19
(Ludwig).) Thus, if filing and prosecuting a lawsuit is
protected, so too are the acts of settling and ultimately

App.13a
dismissing a case. As mentioned in the reply brief,
plaintiff SLO has not cited any legal authority
demonstrating that settlement of a lawsuit constitutes
non-communicative conduct that is not protected by
the anti-SLAPP statute.
In addition, the Complaint specifically refers to
discussions between Midland and Ms. Barr that were
concealed from plaintiff SLO and which ultimately
led to settlement of the collection action. (See Complaint
at ¶¶ 27, 36, 37, 44, 45.) Also, as stated above, the
Court may consider declarations in support of the
motion in its first prong analysis. The declaration by
MCM’s Account Manager, Mary Kay Logan, details
the communications between Midland and Ms. Barr
resulting in settlement of the collection action. (Logan
Decl. at ¶¶ 5-14.) Evidence of said communications
therefore support the settlement-related conduct alleged
in the Complaint.
Furthermore, as the reply points out, it is hard
to imagine Midland settling the collections case with
Ms. Barr without communicating with her. In addressing “communicative” v. “non-communicative” conduct
in the anti-SLAPP context, the appellate court in
Ludwig stated:
“Barstow contends strenuously that Ludwig’s
activities in recruiting and encouraging his
agents are ‘noncommunicative.’ We are at a
loss to imagine how Ludwig accomplished
the recruiting and encouragement without
communication. [Citation.] We must assume
that he asked Keating, Krier, Hendrix, and
Sweet to take certain actions on his behalf.
This required a communication. Further
communicative conduct was then committed

App.14a
by the agents in speaking, writing, and
making allegations in legal documents.”
(Ludwig, supra, 37 Cal.App.4th at p. 20.)
Similarly, there would need to be some degree of
communication or negotiation between Midland and
Ms. Barr to result in any kind of settlement. To
conclude otherwise would be seemingly absurd and
nonsensical. The Complaint here concedes such discussions took place but were concealed from plaintiff
SLO. Midland submits evidence showing these discussions occurred ultimately culminating-in settlement
and dismissal of the collection action. The Court
therefore finds that Midland’s efforts in settling the
collection action constitute communicative conduct in
support of the first prong of the motion.
The only other argument raised in opposition is
that Midland’s conduct is not protected as it does not
involve a public issue or an issue of public interest.
(See OPP at pp. 7-8.) A defendant may satisfy the
first prong based on “any other conduct in furtherance
of the exercise of the constitutional right of petition
or the constitutional right of free speech in connection
with a public issue or an issue of public interest.”
(Code Civ. Proc., § 425.16, subd. (e)(4).) This argument
is immaterial as Midland is not seeking relief under
subdivision (e)(4), but subdivision (e)(2) which does
not require the existence of a public issue or issue of
public interest. (See Vergas v. McNeal (2007) 146
Cal.App.4th 1387, 1395 [Section 425.16, subdivision
(e)(2) does not require the defendant to show a public
issue or issue of public interest].) For reasons stated
above, Midland has satisfied its initial burden in
showing that each cause of action in the Complaint
arises from protected activity. The burden now shifts

App.15a
to plaintiff SLO to demonstrate a probability of
success on the merits.
Second Prong: Probability of Success on the Merits
“To establish a probability of prevailing, the
plaintiff must demonstrate that the complaint is
both legally sufficient and supported by a sufficient
prima facie showing of facts to sustain a favorable
judgment if the evidence submitted by the plaintiff is
credited. For purposes of this inquiry, the trial court
considers the pleadings and evidentiary submissions
of both the plaintiff and the defendant; though the
court does not weigh the credibility or comparative
probative strength of competing evidence, it should
grant the motion if, as a matter of law, the defendant’s
evidence supporting the motion defeats the plaintiff’s
attempt to establish evidentiary support for the claim.
In making this assessment it is the court’s responsibility . . . to accept as true the evidence favorable to
the plaintiff . . . The plaintiff need only establish that
his or her claim has minimal merit to avoid being
stricken as a SLAPP.” (Soukup v. Law Offices of
Herbert Hafif (2006) 39 Cal.4th 260, 291 [internal
citations and quotation marks omitted].)
Plaintiff SLO’s opposition fails to address the
second prong or offer evidence to establish a probability
of success on the merits. Nor does plaintiff SLO
attempt to overcome the defense of the litigation
privilege which appears to bar each cause of action
alleged in the Complaint. (See Flatley v. Mauro (2006)
39 Cal.4th 299, 323 [Civil Code § 47, subd. (b) litigation
privilege presents a substantive defense plaintiff must
overcome to demonstrate probability of success on
the merits]; see also Seltzer, supra, 182 Cal.App.4th
at p. 970 [litigation privilege applies to statements

App.16a
made by counsel during settlement negotiations];
Dowling, supra, 85 Cal.App.4th at p. 1422 [applying
litigation privilege to an action based on statements
the attorney defendant made while negotiating a
settlement].)
As plaintiff SLO has not established a probability
of success on the merits, the special motion to strike
is GRANTED.
Disposition
The special motion to strike the Complaint is
GRANTED.
Midland’s request for attorney’s fees and costs
shall be sought by way of a noticed motion and
attorney declaration to support an award of fees and
costs. (Code Civ. Proc., § 425.16, subd. (c); Ketchum
v. Moses (2001) 24 Cal.4th 1122, 1131.)
SLO’s request for attorney’s fees and costs is
DENIED as it did not prevail in opposing the motion.
Midland shall submit a proposed judgment after
compliance with Rules of Court, Rule 4 3.1312.
/s/ Mary E. Arand
Judge of the Superior Court
Date: July 3, 2019

App.17a
JUDGMENT OF THE
SUPERIOR COURT OF CALIFORNIA
(AUGUST 9, 2019)
SUPERIOR COURT OF CALIFORNIA
COUNTY OF SANTA CLARA
________________________
SPIELBAUER LAW OFFICE,
A SOLE PROPRIETORSHIP,

Plaintiff,
v.
MIDLAND FUNDING, LLC, MIDLAND CREDIT
MANAGEMENT, INC.; and DOES 1-10,

Defendants.
AND RELATED CROSS-COMPLAINT
________________________
Case No. 18CV339157
Before: Mary E. ARAND,
Judge of the Superior Court.
The Special Motion to Strike the Complaint
pursuant to Code of Civil Procedure Section 425.16
(“Motion”) came on regularly for hearing on June 11,
2019, in Department 9 of the Santa Clara County
Superior Court, the Honorable Mary E. Arand presiding. Plaintiff, SPIELBAUER LAW OFFICE (“SLO”),
appeared by attorney Richard Antognini, Esq., of the
Law Office of Richard Antognini, and the Defend-

App.18a
ants/Cross-Complainants, MIDLAND FUNDING, LLC
and MIDLAND CREDIT MANAGEMENT, INC.
(collectively, “Midland”), appeared by attorney Thomas
F. Landers, Esq., of Solomon Ward Seidenwurm &
Smith, LLP.
The Motion was submitted to the Court and,
based on the evidence submitted, the arguments of
counsel and on the pleadings and papers on file in
the matter, on July 5, 2019 the Court issued its order
to grant the motion, and
NOW THEREFORE, IT IS HEREBY ORDERED,
ADJUDGED AND DECREED that:
1. The Special Motion to Strike the Complaint
was GRANTED.
2. Plaintiff SLO shall take nothing by way of its
Complaint against Midland Funding, LLC and Midland
Credit Management, Inc.
3. Pursuant to Code of Civil Procedure section
425.16(c) attorneys’ fees may be sought by way of
noticed motion.
4. Costs are to be sought by way of Memorandum
of Costs.
5. (Deleted as unnecessary.)
6. SLO’s request for attorney’s fees and costs is
DENIED as it did not prevail in opposing the Special
Motion to Strike the Complaint.
IT IS SO ORDERED.
 As documents that are electronically filed cannot be modified
in the case management system, Defendants may submit an
amended judgment after entry of an attorney fees order.

App.19a

/s/ Mary E. Arand
Judge of the Superior Court
Date: August 7, 2019

App.20a
NOTICE OF APPEAL
(OCTOBER 1, 2019)
IN THE SUPERIOR COURT OF THE STATE OF
CALIFORNIA SANTA CLARA COUNTY
________________________
SPIELBAUER LAW OFFICE,
A SOLE PROPRIETORSHIP,

Plaintiff,
v.
MIDLAND FUNDING, LLC, MIDLAND CREDIT
MANAGEMENT, INC.; and DOES 1-10,

Defendants.

________________________
No. 18CV339157

Before: Mary E. ARAND,
Judge of the Superior Court.
Plaintiff Spielbauer Law Office appeals the
judgment entered in this matter on August 9, 2019
granting defendants anti-slapp motion.
The Spielbauer Law Office also appeals any and
all orders and findings that are separately appealable.
An appeal may be taken from a final judgment.
[California Code of Civil Procedure § 904.1(a)(1).]
Additionally, an appeal may be taken From an order
granting or denying a special motion to strike under
Code of Civil Procedure § 425.16. [California Code of

App.21a
Civil Procedure § 904.1(a)(13).] An order granting or
denying a special motion to strike is appealable
under California Code of Civil Procedure § 904.1.
[California Code of Civil Procedure § 425.16(i)/]
A copy of the entry of judgment accompanies
this notice of appeal.
THE SPIELBAUER LAW OFFICE
/s/ Thomas Spielbauer, Esq.
Attorney for Plaintiff
Signature by Email/Fax
Dated: October 1, 2019

App.22a
AMICUS LETTER OF KEVIN SULLIVAN
(AUGUST 18, 2020)
LAW OFFICE OF KEVIN M. SULLIVAN
490 POST STREET, SUITE 452
SAN FRANCISCO, CA 94102
(415) 860-2170
________________________
Kevin M. Sullivan*
Certified Specialist
Legal Malpractice State Bar of California
Honorable Tani-Gorre Cantil-Sakauye, Chief Justice,
and the Honorable Associate Justices of the Supreme
Court of the State of California
Supreme Court of California
Earl Warren Building at Civic Center Plaza
350 McAllister Street
San Francisco, CA 94102-4797
Re:

Petition for Review

Spielbauer Law Office v. Midland Funding,
LLC et al., S263930

To the Honorable Tani-Gorre Cantil-Sakauye,
Chief Justice, and the Honorable Associate Justices
of the Supreme Court of the State of California:
I am writing to this Court to encourage this Court
to grant review in the matter of Spielbauer Law Office
v. Midland Funding, LLC et Al., S263930.
I am certified by the California State Bar as a
specialist in Legal Malpractice. Justice Rubin articulated in Russell v. Foglio (2008) 160 Cal.App.4th 653,
664 a trap which awaits every practitioner who enters
the water of SLAPP litigation. I agree with his concerns.

App.23a
I also agree with Petitioner’s argument that given the
ambiguity of the code sections involved, there should
be two timelines to file a notice of appeal from the
grant of an Anti-SLAPP motion, i.e., from entry of
decision and from entry of judgment.
Justice Rubin wrote, “Moreover, splitting the
proceedings into two appeals [Order and Judgment]
creates a trap for the unwary, who may lose their
right to appeal from the order granting the motion to
strike while they await the final judgment. This is
especially true in cases in which the trial court, as
what happened here, grants the motion to strike the
entire complaint. It is hard to imagine any benefit to
the plaintiff in requiring it to appeal before final
judgment is entitled. ¶ And the trap is not limited to
the unwary.”
A Plaintiff generally will come to practitioners
such as myself when his attorney, no matter how
talented he/she may have been, misses filing of the
notice of appeal when the anti-SLAPP motion is
granted in the trial court. I view this matter from the
perspective of potential malpractice. The ambiguous
deadline for the filing of a notice of appeal discussed
in California Code of Civil Procedure § 425.16(i) and
California Code of Civil Procedure § 904.1 is indeed a
trap for the wary and unwary. The ambiguity of the
code sections involved makes this case worthy of
review.
If for no other reason than to hope to avoid these
kinds of cases from my malpractice representation in
the future, I would request that this Court grant
review.

App.24a
Truly yours,
/s/ Kevin Sullivan, Esq.
cc:
Thomas Spielbauer, Esq.
Spielbauer Law Office
200 South Market Street, Suite 1001
San Jose, CA 95113
Thomas Landers, Esq.
Leah S. Strickland, Esq.
Solomon Ward Seidenwurm & Smith LLP
401 B St., Suite 1200
San Diego, California 92101

App.25a
AMICUS LETTER OF GLEN MOSS
(AUGUST 19, 2020)
MOSS AND MURPHY
1297 B STREET
HAYWARD, CA 94541
TEL: 510 583 1155
FAX: 510 583 1299
E mail: m-m@pacbell.net
________________________
Honorable Tani-Gorre Cantil-Sakauye, Chief Justice,
and the Honorable Associate Justices of the Supreme
Court of the State of California
Earl Warren Building at Civic Center Plaza
350 McAllister Street
San Francisco, CA 94102-4797
Re:

Petition for Review

Spielbauer Law Office v. Midland Funding,
LLC et al., S263930

To the Honorable Tani-Gorre Cantil-Sakauye, Chief
Justice, and the Honorable Associate Justices of the
Supreme Court of the State of California:
Moss and Murphy is a small civil law firm consisting of the undersigned and my wife, Ann Murphy. We
have practiced law in California for about 50 years,
and I am one of the update authors / consultants for the
CEB text dealing with Mortgages, Deeds of Trust and
Foreclosures. I am writing to this Court to encourage
this Court to grant review in the matter of Spielbauer
Law Office v. Midland Funding, LLC et al., S263930.
This case highlights a clear ambiguity in the statutes
governing the time for noticing an appeal of a decision
granting or denying a SLAPP motion. In particular,

App.26a
CCP 904.1(a) states an appeal may be taken from
any of the following: (1) From a Judgment. . . . (13)
From an order under CCP 426.16. Thus, the plain
reading of this statute states that counsel may file a
Notice of Appeal from either the order or the ultimate
judgment. Unfortunately, the Court of Appeal refused
to hear the instant appeal from the Judgment. Without
explanation, the Court of Appeal concluded CCP 904.1
did not mean what it plainly says.
This is an important issue which arises in literally
hundreds of cases every year. Counsel dealing with
SLAPP motions should not be required to speculate
whether the Court of Appeal will accept a Notice of
Appeal that is timely under CCP 904(a)(1)—even if
it is not timely under section 904(a)(13). To my
knowledge, there are no court of appeal or Supreme
Court cases dealing with this conflict. The conflict
arises frequently. Review should be granted.
Truly yours,
Glen Moss, Esq.
cc:
Thomas Spielbauer, Esq.
Spielbauer Law Office
200 South Market Street, Suite 1001
San Jose, CA 95113
Thomas Landers, Esq.
Leah S. Strickland, Esq.
Solomon Ward Seidenwurm & Smith LLP
401 B St., Suite 1200
San Diego, California 92101

App.27a
AMENDED CERTIFICATE OF SERVICE
________________________
SUPREME COURT
OF THE STATE OF CALIFORNIA
________________________
SPIELBAUER LAW OFFICE,

Petitioner,
v.
MIDLAND FUNDING, LLC ET AL.,

Respondents.
________________________
No. S263930
Appeal from Order Granting SLAPP Motion
and Entry of Judgment of the Santa Clara County
Superior Court (No. 18cv339157),
the Honorable Mary Arand, Judge
Thomas Spielbauer, Esq. SBN 078281
Spielbauer Law Office
200 South Market Street, Suite 1001
San Jose, CA 95113
Telephone: (408)835-2067
Facsimile: (610)423-1395
thomas@spielbauer.com
thomas.spielbauer@aol.com
Attorney for Plaintiff and Appellant and Petitioner
Spielbauer Law Office

App.28a
I, Wei Qiang, declare:
I am now, and at all times herein mentioned
was, over the age of eighteen years. My business
address is 200 South Market Street, Suite 1001, San
Jose, CA 95113. My electronic email addresses are
qaz2008love@hotmail.com.
On August 20, 2020, I caused to be served a copy
of the following document: Amicus Letters from Glen
Moss, Esq. And Kevin Sullivan, Esq. This was done
by deposit into the United States Mail with postage
fully prepaid and addressed to:

Trial Court
Clerk of the Court
Santa Clara County Superior Court
191 North First Street
San Jose, CA 95113
Via United States Mail
These letters were further uploaded to the
Attorney General of California through its website:
Attorney General of the State of California
https://oag.ca.gov/services-info/17209-brief/add
Via Digital Upload
Service by Upload to the AG website dedicated to
service of Business & Professions Code § 17209 and
17536.5 Pleadings
I declare under penalty of perjury of the laws of
the State of California that the foregoing is true and
correct to the best of my knowledge. Executed in
Northern California on August 20, 2020.
/s/ Wei Qiang

App.29a
AMICUS LETTER OF DOUGLAS APPLEGATE
(SEPTEMBER 17, 2020)
PACIFIC LEGAL GROUP, PC
315 MONTGOMERY STREET, 9TH FLOOR
SAN FRANCISCO, CA 94104
TEL: (415) 746-1470
FAX: (415) 746-1471
daa@pacificlegalgroup.com
________________________
September 17, 2020
Delivered via TrueFiling
Honorable Tani-Gorre Cantil-Sakauye, Chief Justice
The Honorable Associate Justices
Supreme Court of the State of California
Earl Warren Building at Civic Center Plaza
350 McAllister Street
San Francisco, CA 94102-4797
Re:

Petition for Review

Spielbauer Law Office v. Midland Funding,
LLC etc. (Case No. S263930)

Dear Justices:
I write pursuant to Rule 8.500(g) of the California
Rules of Court and urge the Court to accept review of
the matter of Spielbaur Law Office v. Midland Funding,
LLC. A petition for review is currently pending
under Case Number S263930.
I am the founder of Pacific Legal Group, PC, a
small appellate firm located in San Francisco. I am
also a member of the San Francisco Trial Lawyers
Association and frequently contribute to their commu-

App.30a
nity bulletin board when appellate issues arise. My
experience, both from my practice and my relationship
with the lawyers fighting in the trial court trenches,
is that the anti-SLAPP law provides a constant source
of confusion for the general bar.
The petition for review in Spielbaur provides a
prime opportunity for the Court to dispel some of the
confusion and resolve the conflicts among the District
Courts of Appeal on the impact of anti-SLAPP orders
and the purpose and role, if any, for the ensuing
judgments entered in anti-SLAPP cases.
In the Spielbaur case, the Sixth District Court of
Appeal held that a plaintiff must appeal from the
grant of an anti-SLAPP order and not the subsequent
judgment. That holding conflicts with the Fourth District Court of Appeal’s decision in Tuchscher Develop-

ment Enterprises v. San Diego Unified Port District
(2003) 106 Cal.App.4th 1219. In Tuchscher, after the

court issued its order granting the Port District’s
anti-SLAPP motion, the plaintiff sought reconsideration and filed a motion for discovery. After those
motions were denied, the trial court entered final
judgment on August 16, 2001. Tuchscher Development
filed its notice of appeal forty-three days later on
September 28, 2001 expressly appealing the judgment
and not the earlier anti-SLAPP order. (Id., 106 Cal.
App.4th at p. 1231.) Indeed, after noting that the appeal
was “from the August 2001 judgment” the Fourth
District Court of Appeal proceeded to assert jurisdiction
and issued a decision on the merits. ‘’
The Tuchscher court did not specifically address
the timeliness of the appeal, but that decision was
one of the early rulings on the anti-SLAPP law and it
is routinely cited for its discussion of the proof

App.31a
requirements that rest on a party opposing an antiSLAPP motion. As widely read authority on the antiSLAPP law, the Tuchscher decision has likely lulled
many practitioners into believing that it is appropriate
to appeal from the final judgment in an anti-SLAPP
case. Whether Tuchscher and those practitioners are
right and the Sixth District is wrong is an issue that
this Court can resolve by accepting review.
The confusion for practitioners on the timing for
anti-SLAPP appeals has been exacerbated by the
August 27, 2020 decision of the Third District Court
of Appeal in Marshall v. Webster (Appellate Case
C088240), a decision certified for publication. In Marshall (on which I was the attorney for the appellant),
the court took the Sixth District’s approach one step
further and held an anti-SLAPP order is the same as
a judgment and divests the trial court of jurisdiction
to even reconsider an erroneous anti-SLAPP order.
That Court thus held that the time for an appeal in an
anti-SLAPP case cannot be extended by Rule 8.108(e)
(3) of the California Rules of Court. This decision
conflicts with the approaches taken by the First, Second
and Fourth Districts. (See Holland v. Jones (2nd
Dist. 2012) 210 Cal.App.4th 378 [appeal allowed after
reconsideration of anti-SLAPP order; Melbostad v.
Fisher (1st Dist. 2008) 165 Cal.App.4th 987 [appeal
allowed after reconsideration of anti-SLAPP order];

Cheveldave v. Tri Palms Unified Owners Association

(4th Dist. 2018) 27 Cal.App.5th 1202 [appeal allowed
after reconsideration of anti-SLAPP order].)
Clear guidance from this Court on the appeal
deadline for anti-SLAPP orders that strike an entire
complaint is thus sorely needed. Does the appeal
period begin with the initial order, or can a practitioner

App.32a
wait until final judgment? If the practitioner cannot
wait until final judgment, can he file a motion for
reconsideration, and does that impact the time for an
appeal? As it stands, this area of the law is an
unnecessary trap for diligent attorneys.
The Court should thus accept review.
Very Truly yours,
/s/ Douglas A. Applegate
DAA:r
cc:
Thomas Spielbauer, Esq., via TrueFiling
Thomas Landers, Esq., via TrueFiling

App.33a
AMICUS LETTER OF JOHN SHEPARDSON
(OCTOBER 5, 2020)
LAW OFFICE OF JOHN A. SHEPARDSON
125 E. SUNNYOAKS AVE., NO. 104
CAMPBELL, CA 95008
(408) 395-3701
________________________
Honorable Tani-Gorre Cantil-Sakauye
Chief Justice
The Honorable Associate Justices
Supreme Court of the State of California
Earl Warren Building
350 McAllister Street
San Francisco, CA 94102-4797
Re:

Petition for Review

Spielbauer Law Office v. Midland Funding,
LLC etc. (Case No. S263930)

Dear Justice Cantil-Sakauye and all Justices,
I write pursuant to Rule 8.S00(g) of the California
Rules of Court and urge the Court to accept review of
the matter of Spielbauer Law Office v. Midland
Funding, LLC. (“SLO”). A petition for review is
currently pending under Case Number S263930.
I am trial and appellate counsel in the matter of
Reyes v. Kruger (Cal. Ct. App., Sept. 25, 2020, No.
H044661) 2020 WL 5742675. Reyes is a recently
published decision.

Reyes v. Kruger is more involved than the SLO

matter. Reyes asserts a substantial change in the
substantive orders (award of attorney fees). Another
difference is if the 15-day deadline commences to file

App.34a
motion for new trial after a party serves notice of
entry of an anti-SLAPP order (not judgment). However,
there are related ambiguities on the timing of the
appeal process. Reyes will be filing a petition for
rehearing with the Sixth District Court of Appeal. If
the petition is denied, she will file a Petition for
Review.
I urge this Court to grant review in the SLO
case. In the alternative, I request this Court stay the
hearing of the SLO petition until either the Sixth
District reverses its decision in Reyes v. Kruger, or
until Reyes can join the SLO Petition for Review
before your Court.
Respectfully,
/s/ John A. Shepardson, Esq.
Cc: Thomas Spielbauer, Esq.

